FEDERAL TRADE COMMISSION
 OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS


   October 1, 2003 - March 31, 2004




              Report #30
                                                 TABLE OF CONTENTS




TRANSMITTAL                                                                                                                      Page

INTRODUCTION ...........................................................................................................         1

AUDIT ACTIVITIES ......................................................................................................          1
  Completed Audits .....................................................................................................         1

    Summary of Findings for Reviews Issued During the Current Period ......................                                      2
    Audits in Which Field Work is Complete ..................................................................                    4
    Audits in Which Fieldwork is In Progress .................................................................                   5
    Planned Audits ...........................................................................................................   6

INVESTIGATIVE ACTIVITIES ....................................................................................                    7
  Investigative Summary ...............................................................................................          8
  Matters Referred for Prosecution ...............................................................................               9

OTHER ACTIVITIES .....................................................................................................           9
  Significant Management Decisions ............................................................................                  9
  Access to Information.................................................................................................         9
  Internet Access ...........................................................................................................    9
  Audit Resolution .........................................................................................................     10
  Review of Legislation.................................................................................................         10
  Contacting the Office of Inspector General................................................................                     10

TABLES
  Table I: Summary of Inspector General Reporting Requirements...........................                                        11
  Table II: Inspector General Issued Reports With Questioned Costs..........................                                     12
  Table III: Inspector General Issued Reports With Recommendations That
              Funds Be Put To Better Use ......................................................................                  13
                                     INTRODUCTION

        The Federal Trade Commission (FTC) seeks to assure that the nation’s markets are
competitive, efficient, and free from undue restrictions. The FTC also seeks to improve the
operation of the marketplace by ending unfair and deceptive practices, with emphasis on those
practices that might unreasonably restrict or inhibit the free exercise of informed choice by
consumers. The FTC relies on economic analysis to support its law enforcement efforts and to
contribute to the economic policy deliberations of Congress, the Executive Branch and the
public.

        To aid the FTC in accomplishing its consumer protection and antitrust missions, the
Office of Inspector General (OIG) was provided five work years and a budget of $931,100 for
fiscal year 2004.


                                    AUDIT ACTIVITIES

        During this semiannual period, the OIG issued an audit of the FTC’s FY 2003 financial
statements and a companion report to management containing financial-related findings and
recommendations resulting from the audit. The OIG also issued a review of the agency’s
policies and procedures concerning the participation of contractor employees in agency-
sponsored social events, such as holiday and retirement parties, and completed a draft audit
report of the FTC’s transit subsidy program. The OIG also began audits of the FTC’s
implementation of the Federal Information Security Management Act for Fiscal Year 2004 and
the agency’s technical assistance activities funded by the U.S. Agency for International
Development. Detailed information regarding these audits and reviews is provided below.

                                      Completed Audits

Audit Report Number                                  Subject of Audit
      AR 04-057                     Audit of the Federal Trade Commission’s
                                    Financial Statements for the Fiscal Year Ending
                                    September 30, 2003

       AR 04-057A                   Management Letter to the FY 2003 Financial
                                    Statements

       AR 04-058                    Policy Review: Contractor Participation at
                                    Agency-Sponsored Social Events




                                             -1-
            Summary of Findings for Reviews Issued During the Current Period

       In AR 04-055, Audit of the Federal Trade Commission’s Financial Statements for the
Fiscal Year Ending September 30, 2003, the objective was to determine whether the agency’s
financial statements present fairly the financial position of the agency. The statements audited
were the Balance Sheets as of September 30, 2003 and 2002, and the related Statements of Net
Cost, Statements of Changes in Net Position, Statements of Budgetary Resources, Statements of
Financing, and Statements of Custodial Activity for the years then ended. This was the seventh
consecutive year that the FTC has undertaken a financial statement audit. The agency received
an unqualified opinion, the highest opinion given by independent auditors.

        The FY 2003 audited statements provide insight into the mission and operations of the
Federal Trade Commission. The FTC had total assets of $399.9 million and $237.4 million as of
September 30, 2003 and 2002, respectively. Approximately $304.6 million and $155.9 million
of the 2003 and 2002 assets, respectively, were funds collected or to be collected and distributed
under the consumer redress program, under the agency’s Consumer Protection mission. In
addition, $41.2 million in fiscal year 2003 and $41.0 million in fiscal year 2002 was held in a
divestiture fund and will be subsequently disbursed per the terms of the divestiture agreement
under the agency’s Maintaining Competition mission. Another $1.6 million in fiscal year 2003
and $1.7 million in fiscal year 2002 represent undisbursed Hart-Scott-Rodino (HSR) premerger
fees to be transferred to the Department of Justice (DOJ) in a future period.

       Revenue and financing sources received in fiscal years 2003 and 2002 totaled $184.4 and
$160.9 million, respectively. Exchange revenue, classified as earned revenue on the financial
statements, was received from three sources: the collection of premerger notification filing fees,
Do-Not-Call (DNC) user fees and reimbursements received for services from other government
agencies. Financing sources were received through direct appropriations, appropriation transfers
and imputed for costs absorbed by others.

        Exchange revenue was $62.4 million and $69.2 million for fiscal years 2003 and 2002,
respectively. The primary source of exchange revenue collected, $56.0 million in fiscal year
2003 and $67.9 million in fiscal year 2002, was premerger filing fees. The FTC collects a filing
fee from each business entity that files a Notification and Report Form as required by the Hart-
Scott-Rodino (HSR) Anti-Trust Improvement Act. Qualifying mergers with a transaction
amount over $50 million in total assets are charged a filing fee. The fee is based on a three-
tiered structure: $45,000, $125,000, and $280,000, depending upon the combined total of assets
of the merger transaction. The fee is divided equally between the FTC and the Antitrust
Division of the DOJ. The disposition of amounts collected for DOJ is reported on the Statements
of Custodial Activity. Due to the combination of changing economic conditions and the
restructuring of the filing fee reporting threshold in fiscal year 2001, merger activity over the
past 3 years has slowed. In fiscal year 2003, the FTC processed 968 reportable filings, 174 less
than in 2002. Earned revenue from HSR filing fees dropped $11.9 million from fiscal year 2002.
As a percentage of total financing sources, HSR fees dropped from 42.2 percent of total revenue
in fiscal year 2002 to 30.4 percent in fiscal year in 2003.

       The second source of exchange revenue was Do-Not-Call fees. In September 2003, the

                                               -2-
FTC began collecting fees associated with the implementation and enforcement of the National
Do-Not-Call Registry. This registry operates under Section 5 of the FTC Act, which enforces
the Telemarketing Sales Rule (TSR). Telemarketers under FTC’s jurisdiction are required to pay
a user fee and download from the DNC database a list of consumers’ telephone numbers who do
not wish to receive calls from telemarketers. Fees are based on the number of area codes
downloaded. The fees range from $25 for one area code to $7,375 for all area codes within the
United States. The agency earned $5.2 million in fees in fiscal year 2003, representing 2.9
percent of the total financing sources for the year.

        The third source of exchange revenue was earned through reimbursable agreements with
other federal agencies. Total earnings were $1.2 million and $1.3 million, representing 0.6
percent and 0.8 percent of total financing sources for fiscal years 2003 and 2002, respectively.

        Financing sources were received from direct appropriations from the General Fund of the
Treasury and transfers in the amount of $115.6 million in fiscal year 2003 and $86.6 million in
fiscal year 2002. The budgetary authority appropriated from the General Fund was reduced by
the amount of offsetting collections (HSR and DNC fees) received during the year to arrive at
the final amount of resources appropriated from the General Fund. In fiscal years 2003 and
2002, the amount of direct appropriations and transfers that were recorded as a net financing
source was 62.7 percent and 53.8 percent of total funding sources received.

        The gross cost of operations during the 2003 fiscal year was approximately $174.7
million, an 8.8 percent increase over fiscal year 2002. During 2003, expenses for salaries and
related benefits totaled $114.3 million, or 65.4 percent of the gross cost of operations. Lease
space rental amounted to $16.8 million, or 9.6 percent, and the remaining $43.6 million, or 25.0
percent, included travel, facility maintenance and equipment rental, utilities, imputed benefit
costs, depreciation, future funded expenses, and other items. This supported 1,051 staff-years
which the agency employed in fulfilling its mission.

        The OIG also issued a Management Letter to the FY 2003 Financial Statements (AR 03-
057A). The objective of the management letter is to bring to management’s attention financial
and/or internal control weaknesses that the OIG discovered during the audit of the agency’s
financial statements and to make recommendations for corrective action. The audit also follows
up on past recommendations made in the prior year’s management letter. For example, this
year’s management letter contains two new findings and the status (follow up) of four prior-year
findings. Follow up on one prior year finding identified $16,750 in questioned costs. These
costs resulted from an overpayment for leased parking fees by the agency to the General Services
Administration.

        In AR04-058, Policy Review: Contractor Participation at Agency-Sponsored Social
Events, the OIG received an allegation of a possible violation of government contract regulations
relating to the participation of contractor employees in agency-sponsored social events, such as
holiday and retirement parties.


        The OIG found that contractor employees occasionally plan and attend FTC-sponsored
social functions during regular working hours. However, because the OIG found no agency or

                                              -3-
government-wide policies or procedures to guide staff actions in this area, we did not attempt to
determine who authorized and paid for such involvement. Further, because of a lack of written
policy and/or guidance provided to contracting officer’s technical representatives (COTR) in this
area, it is likely that contractors and their employers are not being adequately instructed on their
involvement in and attendance at such events.

        The OIG believes that the agency needs a policy that provides practical guidance to
agency COTR’s on the narrow issue of contractor employees attending FTC-endorsed social
events (retirement events, holiday parties, etc.). At a minium, the policy should (i) ensure that
the agency is charged only for work authorized under the contract; (ii) maintain an integrated
(federal and contractor) work force with a high esprit de corps that is committed to the goal of
helping the American consumer; (iii) remove any perception of favoritism, e.g., mingling with
contractors at social events, regardless of who pays, when contracts are being recompeted; and
(iv) avoid personal services by abandoning a process that requests contractor employees to
perform certain social event planning tasks or attend certain functions without the knowledge or
involvement of contractor management.

        The OIG recommended that management develop a policy that addresses the issue of
contractor participation in FTC-sponsored social events. Once established, the policy should be
distributed to all agency COTR’s and they in turn should be instructed to inform contractor
representatives of the policy.


                           Audits in Which Field Work is Complete

Audit Report Number                                      Subject of Review
    AR 04-059                         Audit of the FTC’s Transit Subsidy Program for Fiscal
                                      Year 2003 The Federal Government encourages the use of
                                      public mass transportation by its employees. Executive
                                      Order 13150, "Federal Workforce Transportation,"
                                      effective October 2000, requires Federal agencies in the
                                      National Capital Region to provide employees with public
                                      transit subsidies approximating their commuting costs up to
                                      $100 per month. In FY 2003, the FTC provided about
                                      $700,000 in benefits to an average of 650 employees each
                                      month.

                                      The objective of the audit was to determine whether
                                      controls are in place to ensure that (i) Department of
                                      Transportation (DOT) contractor invoices accurately reflect
                                      the amount of subsidy being distributed to agency staff on a
                                      monthly basis; (ii) the agency-paid transit subsidy is
                                      properly reflected in the agency’s books and records and
                                      that all monthly adjustments are properly accounted for;

                                                -4-
                                (iii) employees follow program guidelines when calculating
                                their monthly subsidy request, thus ensuring that they
                                receive only the amount of subsidy authorized under the
                                program; and (iv) only eligible authorized agency staff
                                receive a subsidy.

                                The OIG provided management with a draft audit report for
                                its review and comments.


                      Audits in Which Field Work is In Progress

Audit Report Number                               Subject of Review
    AR04-XXX                    Audit of the FTC’s Technical Assistance Activities
                                Funded by the U.S. Agency for International
                                Development For over a decade, the FTC has assisted
                                transition economies that are committed to market and
                                commercial law reforms. With funding principally from
                                the USAID, about 30 nations have received technical
                                assistance with the development of their competition laws.

                                The Foreign Operations, Export Financing and Related
                                Programs Appropriations Act of 2003 provides USAID
                                with authority to make such fund transfers. In addition,
                                and for the first time, the Act contains an audit provision
                                directed to the Office of Inspectors General for recipient
                                agencies. Specifically, Sec. 509(d) requires the OIG to
                                perform periodic program and financial audits of the use of
                                AID funds.

                                In keeping with this new mandate, an audit program was
                                developed with the objectives to determine whether the
                                costs charged against USAID funds (i) are supported by
                                approved documentation and payroll allocations and that
                                these allocations appear proper and reasonable and (ii)
                                conform to the requirements stipulated by USAID in its
                                Memorandum of Agreement and reimbursable work
                                agreements.


    AR04-XXX                    Review of the Federal Trade Commission
                                Implementation of the Federal Information Security
                                Management Act for Fiscal Year 2004 The Federal
                                Information Security Management Act of 2002 (FISMA)

                                         -5-
                      requires an independent assessment of Federal agency
                      information security programs and practices to determine
                      their effectiveness. The OIG will evaluate the adequacy of
                      the FTC’s computer security program and practices for its
                      major systems. This year, the OIG will focus its review on
                      the FTC’s Plan of Action and Milestones at the time they
                      are submitted to OMB to determine to what extent the
                      agency has implemented previously agreed to OIG and
                      other internally-identified recommendations. This will
                      enable the OIG to provide more timely feedback to
                      management on the results of its efforts to address
                      weaknesses. In addition, the OIG will consider other well
                      known vulnerabilities, including access controls to FTC
                      databases by program and IT staff.


                         Planned Audits

Audit Report Number                       Subject of Review
    AR04-XXX          Audit of the Use of Government Purchase and Travel
                      Cards Recent reports by the General Accounting Office
                      and Inspectors General, as well as congressional hearings
                      and press reports, have once again raised serious concerns
                      regarding the adequacy of internal control systems that
                      monitor the use of the more than 2.5 million Government
                      credit cards in circulation. To date, millions of dollars of
                      fraudulent and unauthorized expenditures have been made
                      using these cards. While the purchase and travel card
                      programs have increased efficiency in the federal
                      acquisition process, they have also created large, new
                      opportunities for fraud and abuse.

                      The overall objective of this audit will be to ensure that the
                      credit card programs have effective internal controls to
                      prevent abuses. The OIG will also perform transaction tests
                      to identify (i) potentially fraudulent, improper and abusive
                      uses of purchase cards and (ii) any patterns of improper
                      cardholder transactions, such as purchases of prohibited
                      items.
    AR04-XXX          Survey of Do-Not Call Registry Removal Procedures
                      The OIG has learned of some consumers being
                      inadvertently removed from the Do-Not-Call Registry
                      without their knowledge or consent. DNC officials
                      informed the OIG that on occasion, when a caller makes

                               -6-
                                      changes to his/her phone service the local companies might
                                      mistakenly identify such requests as a disconnect. In turn,
                                      when the agency’s contractor routinely scrubs the registry,
                                      it also identifies such numbers as disconnects and removes
                                      them from the DNC registry.

                                      In conclusion, the objectives of this OIG survey are to
                                      assess whether adequate internal controls are in place and
                                      appropriately working to guard against any unintended
                                      removal of consumers from the DNC registry.


                               INVESTIGATIVE ACTIVITIES

      The Inspector General is authorized by the IG Act to receive and investigate allegations of
fraud, waste and abuse occurring within FTC programs and operations. Matters of possible
wrongdoing are referred to the OIG in the form of allegations or complaints from a variety of
sources, including FTC employees, other government agencies and the general public.

      Reported incidents of possible fraud, waste and abuse can give rise to administrative, civil
or criminal investigations. OIG investigations might also be initiated based on the possibility of
wrongdoing by firms or individuals when there is an indication that they are or were involved in
activities intended to improperly affect the outcome of particular agency enforcement actions.
Because this kind of wrongdoing strikes at the integrity of the FTC's consumer protection and
antitrust law enforcement missions, the OIG places a high priority on investigating it.

      In conducting criminal investigations during the past several years, the OIG has sought
assistance from, and worked jointly with, other law enforcement agencies, including other
OIG’s, the Federal Bureau of Investigation, the U.S. Postal Inspection Service, the U.S. Secret
Service, the U.S. Marshal’s Service, the Internal Revenue Service, Capitol Hill Police, as well as
state agencies and local police departments.




                                    Investigative Summary

     During this reporting period, the OIG received 110 complaints/allegations of possible
wrongdoing. Of the 110 complaints, 74 involved issues that fall under the jurisdiction of FTC
program components (identity theft, credit repair, etc.). Consequently, the OIG referred these
matters to the appropriate FTC component for disposition. Another eight complaints were

                                               -7-
referred to other government and/or law enforcement agencies for ultimate disposition.

      Of the remaining 28 complaints, 23 were closed without any action, two are being
monitored during the pendency of an administrative adjudication at the FTC, two are matters that
are under investigation by the OIG and one resulted in an OIG audit.

     Following is a summary of the OIG's investigative activities for the six-month period
ending March 31, 2004.

              Cases pending as of 9/30/03.........................       5
                     Plus: New cases.................................   +2
                     Less: Cases closed.............................    (2)
              Cases pending as of 3/31/04..........................      5

      The first closed investigation resulted from an allegation made by an agency employee
regarding a possible security breach of his personal computer. This employee, before discussing
his concerns with the OIG, had informed management of his suspicions. Management
investigated this employee’s allegations and concluded that no intrusion had occurred. Believing
that some of his concerns had not been fully investigated by management, this employee came to
the OIG.

      Beginning with a chronology of the alleged intrusions, the OIG researched each allegation
to determine whether the activity reported constituted an attempted intrusion and performed
independent testing to determine the true nature of the activity reported. While the employee’s
concerns appeared valid, detailed research and testing revealed them to be unfounded. The OIG
agreed with management that no intrusion had occurred and closed the investigation.

      The second closed investigation involved an alleged leak of nonpublic information by an
FTC staff member. Counsel for the defendant in a consent decree proceeding raised the
allegation with the OIG. The OIG investigation did not develop sufficient evidence to establish
that the alleged unauthorized disclosure occurred. We informed management of our
investigative findings and closed the matter.




                                 Matters Referred for Prosecution

      During the current reporting period the OIG conferred with a Federal prosecutor on a
matter involving the unauthorized disclosure of information by an agency employee. After
receiving a declination from the prosecutor, the matter was referred to management for final
disposition.


                                                    -8-
                                     OTHER ACTIVITIES

                              Significant Management Decisions

      Section 5(a)(12) of the Inspector General Act requires that if the IG disagrees with any
significant management decision, such disagreement must be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by management to change a
significant resolved audit finding must also be disclosed in the semiannual report. For this
reporting period there were no significant final management decisions made on which the IG
disagreed and management did not revise any earlier decision on an OIG audit recommendation.


                                     Access to Information

     The IG is to be provided with ready access to all agency records, information, or assistance
when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the IG to
report to the agency head, without delay, if the IG believes that access to required information,
records, or assistance has been unreasonably refused, or otherwise has not been provided. A
summary of each report submitted to the agency head in compliance with Section 6(b)(2) must
be provided in the semiannual report in accordance with Section 5(a)(5) of the Act.

      During this reporting period, the OIG did not encounter any problems in obtaining
assistance or access to agency records. Consequently, no report was issued by the IG to the
agency head in accordance with Section 6(b)(2) of the IG Act.


                                         Internet Access

     The OIG can be accessed via the world wide web at: http://www.ftc.gov/oig. A visitor to
the OIG home page can download recent 1996-2004 OIG semiannual reports to Congress, the FY
1998 - 2003 financial statement audits, and other program and performance audits issued
beginning in FY 1999. A list of audit reports issued prior to FY 1999 can also be ordered via an
e-mail link to the OIG. In addition to this information resource about the OIG, visitors are also
provided a link to other federal organizations and office of inspectors general.



                                        Audit Resolution

      As of the end of this reporting period, all OIG audit recommendations for reports issued in
prior periods have been resolved. That is, management and the OIG have reached agreement on
what actions need to be taken.



                                               -9-
                                      Review of Legislation

      Section 4(a)(2) of the IG Act authorizes the IG to review and comment on proposed
legislation or regulations relating to the agency or upon request affecting the operations of the
OIG. During this reporting period, the OIG provided comments upon request to the PCIE/ECIE
leadership in response to (i) Congressional-hearing questions regarding the issue of OIG
consolidation, (ii) draft legislation to amend various provisions of the IG Act, (iii) proposed
legislation entitled the Improved Government Accountability Act aimed at strengthening IG
independence, and (iv) recently-passed legislative provisions affecting IG pay when the IG is a
member of the Senior Executive Service.


                          Contacting the Office of Inspector General

      Employees and the public are encouraged to contact the OIG regarding any incidents of
possible fraud, waste, or abuse occurring within FTC programs and operations. The OIG
telephone number is (202) 326-2800. To report suspected wrongdoing, employees and the public
should call the OIG's investigator directly on (202) 326-2618. A confidential or anonymous
message can be left 24 hours a day. Complaints of allegations of fraud, waste or abuse can also
be email directly to chogue@ftc.gov.

      The OIG is located in Suite 1110, 601 New Jersey Avenue, Washington, D.C. Office hours
are from 8:30 a.m. to 6:00 p.m., Monday through Friday, except federal holidays. Mail should be
addressed to:

                              Federal Trade Commission
                              Office of Inspector General
                              Room NJ-1110
                              600 Pennsylvania Avenue, NW
                              Washington, DC 20580




                                              - 10 -
                                 TABLE I
                      SUMMARY OF INSPECTOR GENERAL
                         REPORTING REQUIREMENTS

   IG Act
 Reference                      Reporting Requirement                           Page(s)

Section 4(a)(2)       Review of legislation and regulations                         10

Section 5(a)(l) Significant problems, abuses and deficiencies               1-4

Section 5(a)(2)       Recommendations with respect to significant
                      problems, abuses and deficiencies                             3-4

Section 5(a)(3)       Prior significant recommendations on which
                      corrective actions have not been made                         10

Section 5(a)(4)       Matters referred to prosecutive authorities                    9

Section 5(a)(5)       Summary of instances where information was refused             9

Section 5(a)(6)       List of audit reports by subject matter, showing dollar
                      value of questioned costs and funds put to better use          1

Section 5(a)(7)       Summary of each particularly significant report                1

Section 5(a)(8)       Statistical tables showing number of reports and
                      dollar value of questioned costs                              12

Section 5(a)(9)       Statistical tables showing number of reports and dollar
                      value of recommendations that funds be put to better use      13

Section 5(a)(10)      Summary of each audit issued before this reporting
                      period for which no management decision was made
                      by the end of the reporting period                            10

Section 5(a)(11)      Significant revised management decisions                       9

Section 5(a)(12)      Significant management decisions with which
                      the inspector general disagrees                                9




                                              - 11 -
                                TABLE II
                    INSPECTOR GENERAL ISSUED REPORTS
                         WITH QUESTIONED COSTS


                                                 Number             Dollar Value


                                                           Questioned       Unsupported
                                                             Costs            Costs

A. For which no management decision
   has been made by the commencement
   of the reporting period                             1    8,400           [      0   ]

B. Which were issued during the
   reporting period                                    1   16,750           [      0   ]

   Subtotals (A + B)                                   2   25,150           [      0   ]

C. For which a management decision
   was made during the reporting period                2   25,150           [      0   ]

   (i) dollar value of disallowed costs                1   16,750           [      0   ]

   (ii) dollar value of cost not disallowed            1    8,400           [      0   ]

D. For which no management decision was
   made by the end of the reporting period             0       0            [      0   ]

   Reports for which no management
   decision was made within six months
   of issuance                                         0       0            [      0   ]




                                              - 12 -
                                        TABLE III

          INSPECTOR GENERAL ISSUED REPORTS
 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                      Number   Dollar Value


A. For which no management decision has been
   made by the commencement of the reporting
   period                                               0              0

B. Which were issued during this reporting
   period                                               0              0

C. For which a management decision was
   made during the reporting period                     0          0

   (i) dollar value of recommendations
       that were agreed to by management                0          0

     - based on proposed management
       action                                           0          0

     - based on proposed legislative
       action                                           0          0

   (ii) dollar value of recommendations
        that were not agreed to by
        management                                      0          0

D. For which no management decision has been
   made by the end of the reporting period              0          0

   Reports for which no management decision
   was made within six months of issuance               0          0




                                             - 13 -
